                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              DEPARTMENTAL INVOLVEMENT IN CHINATOWN
                                              MANPOWER PROJECT, INC., CONTRIBUTED TO
                                              CIRCUMVENTION OF PROCUREMENT RULES




                                                                  Date Issued: August 25, 2005
                                                                  Report Number: 02-05-202-01-001
U.S. Department of Labor                                  August 2005
Office of Inspector General
Office of Audit                                           DEPARTMENTAL INVOLVEMENT IN CHINATOWN
                                                          MANPOWER PROJECT, INC., CONTRIBUTED TO
BRIEFLY…                                                  CIRCUMVENTION OF PROCUREMENT RULES

Highlights of Report Number: 02-05-202-01-001, to         WHAT OIG FOUND
the Deputy Secretary, U.S. Department of Labor.
                                                          The Department was substantially involved in
August 24, 2005
                                                          arrangements to provide funding for CMP’s
                                                          subcontractors. The Department’s actions led
WHY READ THE REPORT                                       NYSDOL to believe the Department had sanctioned
                                                          specific organizations to receive the $1 million
Chinatown Manpower Project, Inc. (CMP) received a         earmarked for Chinatown, which in turn led CMP to
$1.1 million contract under a $25 million Workforce       enter into subcontracts with those organizations
Investment Act National Emergency Grant (NEG)             without full and open competition. Finally, the
that the U. S. Department of Labor (Department)           Regional Representative in New York created an
awarded the New York State Department of Labor            appearance of favoritism because she had long-term
(NYSDOL) after the September 11, 2001, attack on          friendships with executives of two of the selected
the World Trade Center (WTC). The purpose of the          organizations.
NEG was to provide core, intensive, and training
services for workers who lost their jobs as a result of   We believe that the Department’s involvement was
the WTC attack. This report discusses issues              prompted by good intentions: the need to respond to
surrounding the Department’s involvement in the           the economic and psychological impact of
selection of CMP subcontractors, which contributed        September 11, 2001. However, we concluded that
to the circumvention of procurement rules and             the Department placed itself in a situation of having
regulations.                                              contributed to actions taken by NYSDOL and CMP
                                                          that ultimately were inconsistent with Federal
WHY OIG DID THE AUDIT                                     procurement rules and regulations for which the
                                                          Department is responsible for ensuring compliance.
The Office of Inspector General (OIG) initiated an        We also concluded there was inadequate
audit in response to a hotline complaint referred to      delineation of the Department’s responsibilities and
us by the Office of the Secretary of Labor alleging       control over planning and carrying out the
misuse of departmental funds by CMP. During the           Chinatown response.
audit, we became aware of potential irregularities in
how CMP’s subcontractors were identified to receive       WHAT OIG RECOMMENDED
funds. The OIG expanded the hotline audit to              We recommended that appropriate action be taken
include the propriety of the award of NEG funds to        to ensure that (1) all departmental employees fully
CMP and its subcontractors, which is the subject of       comply with and promote the spirit and letter of
this report.                                              Federal procurement and ethics laws and
                                                          regulations; (2) the roles and responsibilities of
READ THE FULL REPORT                                      personnel in the Office of the Secretary, the
                                                          Regional Representatives, the Employment and
                                                          Training Administration, and other key personnel are
To view the report, including the scope,
                                                          clearly delineated for grant awards, especially in
methodology, and full agency response, go to:
                                                          emergency situations; and (3) a record is maintained
http://www.oig.dol.gov/publicreports/oa/2005/02-05-
                                                          of decisions and discussions that lead to actions by
202-01-001.pdf.
                                                          departmental officials that affect how and to whom
                                                          grant funds are distributed.

                                                          The Deputy Secretary concurred with the
                                                          recommendations and provided information about
                                                          actions taken and planned to address the
                                                          recommendations. Based on the information
                                                          provided, we resolved recommendation 1 and
                                                          closed recommendations 2 and 3.
                                           Departmental Involvement in Chinatown Manpower Project, Inc.,
                                                     Contributed to Circumvention of Procurement Rules




Table of Contents
                                                                                                                    PAGE


EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

    The Department of Labor's involvement in arrangements to provide funding to
    Chinatown Manpower Project, Inc.'s subcontractors contributed to the
    circumvention of Federal and state procurement regulation............................... 7

  Appendices .............................................................................................................. 17

  A. Background ......................................................................................................... 19

  B. Objective, Scope, Methodology, and Criteria ................................................... 21

  C. Acronyms and Abbreviations ............................................................................ 25

  D. Agency Response ............................................................................................... 27




U.S. Department of Labor—Office of Inspector General                                                                        1
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                          Departmental Involvement in Chinatown Manpower Project, Inc.
                                                    Contributed to Circumvention of Procurement Rules



Executive Summary
We initiated an audit in response to a hotline complaint referred to us by the Office of
the Secretary of Labor alleging misuse of the U. S. Department of Labor (Department)
funds by Chinatown Manpower Project, Inc. (CMP). The allegations included delays in
paying teachers, employment assistance not being provided, and teachers not being
present at or qualified to teach English as a Second Language classes. We found the
allegations to be without merit. However, during the audit, we became aware of
potential irregularities in how CMP’s subcontractors were identified to receive funds.
The OIG expanded the hotline audit to include the propriety of the award of NEG funds
to the CMP and its subcontractors, which is the subject of this report. The hotline
allegations, and additional grant issues that came to our attention during the audit, will
be addressed in a separate report to the Assistant Secretary for Employment and
Training.

CMP received a $1.1 million contract under a $25 million Workforce Investment Act
(WIA) National Emergency Grant (NEG) that the Department awarded the New York
State Department of Labor (NYSDOL) after the September 11, 2001, attack on the
World Trade Center.

Results

We found that the Department was substantially involved in arrangements to
provide funding for subcontractors under CMP's contract from NYSDOL.
Specifically, departmental officials identified service providers in Chinatown,
recommended service providers to NYSDOL, and notified the Chinese Christian
Herald Crusade (Herald), the Chinese-American Planning Council (Council), and
the Asian American Business Development Center (AABDC)1 of their selection.
This level of involvement, which was not evident at any of the other 17 New York
State NEG subcontractors and was uncommon at a level two tiers below the
Department’s prime grant with the State, was the basis for actions by NYSDOL
and CMP to award funds to certain subrecipients.

Specifically, the Department’s actions led NYSDOL to believe the Department had
sanctioned specific organizations to receive the $1 million earmarked for Chinatown. In
addition, CMP believed that the Department had designated specific groups to
participate under the NEG grant to NYSDOL; therefore, CMP entered into subcontracts
with those organizations without full and open competition nor proper justification of the
use of a noncompetitive process, contrary to Federal procurement requirements
contained in 29 CFR 95.43. Also, NYSDOL bypassed 29 CFR 97.36, which required
that New York comply with state procurement requirements. Finally, the Regional
Representative in New York - who participated in researching potential service

1
    AABDC opted not to participate in the grant.

U.S. Department of Labor—Office of Inspector General                                                3
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

providers, provided contact information for two of the providers, and notified the service
providers they had been selected to receive an NEG award - created an appearance of
favoritism because she had long-term friendships with executives of two of the selected
organizations.

We believe that the Department’s involvement was prompted by good intentions: the
need to respond to the enormous economic and psychological impact the events of
September 11, 2001, had on Chinatown and New York City. However, we concluded
that the Department placed itself in a situation of having contributed to actions taken by
NYSDOL and CMP that ultimately were inconsistent with Federal procurement rules
and regulations for which the Department is responsible for ensuring compliance. We
also concluded there was inadequate delineation of the Department’s responsibilities
and control over planning and carrying out the Chinatown response. Responsibility was
divided among the Office of the Secretary, the Regional Representative, the Assistant
Secretary for Employment and Training (ETA Assistant Secretary), and staff.

Recommendations

We recommend that appropriate action be taken to ensure that:

    1.    all departmental employees fully comply with and promote the spirit and letter
          of Federal procurement and ethics laws and regulations, including but not
          limited to acting impartially, recusing themselves where there is a factual or
          apparent conflict of interest, and abstaining from the appearance of giving
          preferential treatment to any organization or individual;

    2.    the roles and responsibilities of personnel in the Office of the Secretary, the
          Regional Representatives, the Employment and Training Administration, and
          other key personnel are clearly delineated for grant awards, especially in
          emergency situations; and

    3.    a record is maintained of decisions and discussions that lead to actions by
          departmental officials that affect how and to whom grant funds are distributed.


Agency Response

The Deputy Secretary provided a written response on August 8, 2005, which concurred
with the recommendations of the OIG and provided information about actions taken and
planned to address the recommendations. His response in its entirety is attached as
Appendix D.




4                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

OIG Conclusion

The Department’s written response included a plan to provide specialized training to
regional appointees. This is an excellent idea and will address a significant concern
raised in our report. The actions that led to the contract award problems with the NEG,
however, were not confined solely to the regional appointee. Therefore, the Deputy
Secretary subsequently agreed to provide such training to all Department employees
involved either directly or indirectly in procurement. Based on the written response and
subsequent agreement, recommendation 1 is resolved. The recommendation will be
closed when all training is completed.

Based on information and documentation provided of actions already taken,
recommendations 2 and 3 are resolved and closed.




U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

The Honorable Elaine Chao
Secretary of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

We initiated an audit in response to a hotline complaint referred to us by the Office of
the Secretary of Labor alleging misuse of departmental funds by Chinatown Manpower
Project, Inc. (CMP). CMP received a $1.1 million contract under a $25 million
Workforce Investment Act (WIA) National Emergency Grant (NEG) that the Department
awarded the New York State Department of Labor (NYSDOL) after the
September 11, 2001, attack on the World Trade Center. During the audit of CMP, we
became aware of issues in the process used on how the Chinese American Planning
Council (Council) and the Chinese Christian Herald Crusade (Herald) were selected as
CMP’s subcontractors. We expanded the audit to determine what involvement the
Department had in the selection of CMP’s subcontractors. Our results with respect to
the expanded scope are the subject of this report. The results of our audit of the
original hotline allegations and other issues will be addressed in a separate report to the
Assistant Secretary for Employment and Training (ETA Assistant Secretary).

Objective
What was the Department‘s involvement in the selection of CMP’s subcontractors?

Finding - The Department of Labor's involvement in arrangements to provide
funding to Chinatown Manpower Project, Inc.’s subcontractors contributed to the
circumvention of Federal and state procurement rules and regulations

We found that the Department was substantially involved in arrangements to provide
funding for subcontractors under CMP's contract from NYSDOL. The Department’s
involvement led NYSDOL and especially CMP officials to believe that the Department
had sanctioned specific organizations to receive the $1 million earmarked for
Chinatown. As a result, CMP entered into certain subcontracts without full and open
competition or properly justify the use of a noncompetitive process contrary to 29 CFR
95.43 requirements, and NYSDOL avoided state procurement guidelines, which in this
case required fair and open competition and bypassed 29 CFR 97.36, requiring New
York to comply with state and local laws. Further, the Regional Representative in New

U.S. Department of Labor—Office of Inspector General                                       7
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

York – who participated in researching potential service providers, provided contact
information for two of them, and notified the service providers they had been selected to
receive an NEG award – created an appearance of favoritism because she had long-
term friendships with executives of two of the organizations originally selected, one of
which received an award.

We believe that the Department’s proactive participation was prompted by good
intentions; however, we concluded that the Department put itself in a situation of having
contributed to actions taken by NYSDOL and CMP that ultimately were inconsistent with
Federal procurement rules and regulations for which the Department is responsible for
ensuring compliance. We also concluded there was inadequate delineation of the
Department’s responsibilities and control over planning and carrying out the Chinatown
response.

    CMP Subcontractors       CMP’s contract listed four subcontractors. As a result of
                             contacts from departmental and NYSDOL officials, CMP
                             agreed to act as the fiscal conduit to the Chinese American
Planning Council (Council – $298,583) and the Chinese Christian Herald Crusade
(Herald – $148,385). In addition, CMP previously selected the New York Urban League
(NYUL) without competition as a subcontractor based on NYUL’s experience in serving
dislocated workers. A fourth subcontractor, the American Beauty School, was selected
by CMP from an official list of New York approved training providers.

The Council, whose mission is to improve the quality of life of Chinese-Americans by
providing services, skills, and resources, was a competitor of CMP. The Herald, whose
mission is to lead Chinese Americans to Christ through community services and
evangelical efforts, had some experience in providing English as a Second Language
training and legal services but no experience in either serving dislocated workers or
administering Federal programs.

    The Department        The Department awarded a $25 million NEG to NYSDOL to
    Was Involved in       assist workers dislocated as a result of the September 11,
    Identifying           terrorist attack on the World Trade Center. In a speech on
    Service Providers     December 1, 2001, at the Chinese Consolidated Benevolent
                          Association, the Secretary announced that she was providing
NYSDOL $1 million to assist in Chinatown’s recovery efforts, and that she had charged
staff in her office with making sure the grant money reached the people who needed it
most. As a result of the Secretary’s commitment, officials in the Department of Labor
became involved in identifying service providers, which was unprecedented, for the
Chinatown project. The Department’s interest was heightened when it became
apparent that CMP did not have the capacity to fulfill the Secretary’s $1 million
commitment to Chinatown and that CMP was the only service provider in Chinatown
being considered by NYSDOL. CMP was selected by NYSDOL because NYSDOL was




8                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                          Departmental Involvement in Chinatown Manpower Project, Inc.
                                                    Contributed to Circumvention of Procurement Rules

only considering organizations on an approved list of dislocated worker service
providers.

Officials from the Department became involved. Although there was a lack of
documentation of internal discussions and a need to rely on sometimes-conflicting
information, it is clear that the Department’s Office of the Secretary and the Office of
Congressional and Intergovernmental Affairs identified additional organizations
providing services in Chinatown. Staff from these offices researched community-based
organizations within Chinatown. Departmental officials held meetings to discuss how to
best assist New York in the wake of September 11, including how to assist Chinatown
and what local organizations could potentially be tapped for that purpose. Attendees at
such meetings included the Secretary, her Chief of Staff, the ETA Assistant Secretary,
Counselor to the Secretary, and by phone the Regional Representative.

Although no one we interviewed who attended the meetings could recall the specifics of
the meetings or their exact number, there was a general recollection that there were
several meetings and that they involved the Department’s response to the effects of the
September 11 attack. At our February 15, 2005, briefing, the Secretary indicated she
recalled the meetings as being primarily about plans for her visit to New York, although
she did recall discussing whether the Department could provide money directly to a
service provider and that CMP was specifically mentioned, but not the other entities.
The Secretary also stated that no one, including the Regional Representative in New
York, was instructed to direct funds to any specific entities, and that she expected all
departmental staff to act in accordance with applicable requirements and was
disappointed to the extent this had not been the case.

While it remains unclear how it came to pass, the Regional Representative notified the
Herald, Council, and the Asian American Business Development Center (AABDC)2 of
the NEG award, and also at the request of NYSDOL provided contact information for
the Herald and AABDC in order for NYSDOL to convene a meeting, in which the
Regional Representative attended, to discuss CMP’s role as the fiscal conduit and the
other organizations understanding of the WIA grant process. This level of departmental
involvement was not evident with any of the other 17 New York State NEG
subcontractors.

We also concluded there was inadequate delineation of the departmental
responsibilities and control over planning and carrying out the Chinatown response.
Responsibility was divided among the Office of the Secretary, the Regional
Representative, the ETA Assistant Secretary, and staff. The ETA Assistant Secretary
stated in an interview that the Department’s lead responsibility on the project was not
clearly delineated among ETA, the Regional Representative, and the Secretary’s staff.
Both the ETA Assistant Secretary and the Regional Representative had contact with
NYSDOL regarding the NEG. Also, there is no record of topics discussed or decisions
made at the departmental level with respect to the Chinatown service providers. As a


2
    AABDC opted not to participate in the grant.

U.S. Department of Labor—Office of Inspector General                                                9
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

result, there was no clear accountability, and recollections of departmental executives
and staff had to be relied upon to attempt to explain how the names of the organizations
surfaced and were put forward as potential service providers.

                                   NYSDOL did not award contracts to the Herald,
    NYSDOL and CMP Believed        Council, and AABDC directly because, unlike CMP,
    the Department Sanctioned      they were not on the NYSDOL approved list of
    Specific Organizations to      dislocated worker service providers, who, according
    Receive Funding                to NYSDOL officials, had previously participated in a
                                   competitive process.3 Therefore, in order to ensure
more dislocated workers in Chinatown could be helped, NYSDOL, with departmental
guidance, requested that CMP award subcontracts to the Herald, Council and AABDC.
These organizations previously had been identified by personnel from the Secretary’s
Office and the Office of Congressional and Intergovernmental Affairs as ones to provide
services to the people of Chinatown. The ETA Assistant Secretary indicated that the
Secretary’s Regional Representative and a former staff assistant in the Office of the
Secretary made the decision to use CMP as a fiscal agent and make the other service
providers subcontractors to CMP.

The Department’s involvement as discussed above led NYSDOL and especially CMP
officials to believe that the Department had sanctioned specific organizations to receive
the $1 million earmarked for Chinatown. A NYSDOL official stated that CMP was
accommodating the wishes as expressed by the Secretary through press releases,
other means, and the Regional Representative, to be able to move funds to certain
Asian organizations that were positioned to help provide employment and training
services in Chinatown. In our opinion, this contributed to CMP’s failure to follow
procurement regulations that at a minimum require a subrecipient to make the
determination as to whether or not a competitive process was feasible. Minutes from
CMP’s December 11, 2001, Board of Directors’ meeting reflects CMP’s understanding
of its role as the “fiscal conduit” in order to “funnel” money to the Herald and the
Council:

          Secretary Chao has designated four agencies as recipients of the fund.
          However, CMP is the only agency among the four who has a current
          contract with NYSDOL and therefore, the funds could easily be channeled
          to CMP through a budget modification. Since the other agencies do not
          have any existing contractual relationship with NYSDOL, CMP was asked
          by NYSDOL to be the fiscal conduit to the other agencies in order to
          funnel the money to them. The Board approved CMP as the fiscal conduit
          for the other three agencies, namely the Chinese American Planning
          Council, Asian American Business Development Center, and the Chinese
          Christian Herald Crusade.



3
    The use of this list was approved by the New York State Comptroller.

10                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 02-05-202-01-001
                                          Departmental Involvement in Chinatown Manpower Project, Inc.
                                                    Contributed to Circumvention of Procurement Rules

By implementing NYSDOL’s request, CMP violated 29 CFR 95.43 which provides for, to
the maximum extent practical, open and free competition in the award of departmental
funds; where an award is made without competition, the awarding organization, upon
request, must make available requests for proposals or invitations for bids, and
evaluations of the technical competence and cost estimates of potential subcontractors.
There was no attempt to solicit competition, nor perform technical and cost analyses,4
by CMP. By implementing USDOL guidance making CMP the fiscal agent, NYSDOL
avoided state procurement guidelines, which in this case required fair and open
competition5 and bypassed 29 CFR 97.36, requiring New York to comply with state and
local laws.

According to officials of the Employment and Training Administration (ETA) and the
Office of the Solicitor, neither Congress nor the Department had established special
procurement procedures at the time the NEG was awarded to NYSDOL that would have
given authority to the Department, NYSDOL, or CMP to depart from Federal and state
procurement rules and regulations. A NYSDOL official stated that concerns might have
been expressed to the ETA Assistant Secretary about NYSDOL being placed in a
difficult situation by the Department. The ETA Assistant Secretary stated that no
concerns had been raised with her, but that, even if the Department had recommended
subcontractors, NYSDOL was free to accept or reject those recommendations. At the
request of CMP, NYSDOL convened a meeting with the proposed subcontractors, the
Regional Representative, and CMP to discuss the contract awards and administrative
logistics.

                           While NYSDOL can be faulted for not ensuring that CMP
Departmental               adhered to Federal and state procurement requirements, the
Actions Lacked             Department should have been cognizant of the impact its real
Impartiality and           or perceived influence had in this situation. The Regional
Were Inconsistent          Representative’s involvement at the subcontract level
with WIA                   demonstrated a lack of impartiality. Further, the Department’s
                           involvement was inconsistent with WIA’s guiding principle of a
strong local role in planning WIA programs, and also the Federal Grant and Cooperative
Agreement Act of 1977 (P. L. 95-224) as implemented in Department of Labor Manual
Series 2-Administration, Chapter 800, Sections 854 and 856, which define the
relationships between the parties involved in grants and cooperative agreements. As a
result, the Department put itself in a situation of having contributed to actions taken by
NYSDOL and CMP that ultimately were inconsistent with Federal procurement rules
and regulations for which the Department is responsible for ensuring compliance.



4
 NYSDOL performed cost analysis. However, there was not sufficient documentation to determine if each element
of cost was allowable, allocable and reasonable.
5
  NY State Procurement Guidelines in certain cases does allow for a noncompetitive process. NYSDOL did not exercise
these provisions which would have required the approval of the agency head or designee and the agency to make all
reasonable attempts to solicit at least three oral competitive bids and written confirmation of each solicitation to be
furnished within a reasonable time and maintained as an official record. (See Criteria Section in Appendix B.)

U.S. Department of Labor—Office of Inspector General                                                                 11
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

Lack of Impartiality

The actions of the Regional Representative represented, at a minimum, a lack of
impartiality contrary to 5 CFR 2635.101(b)(8) because she had long-term friendships
with executives of two of the organizations that were notified of their NEG award.
Although she initially stated she had no knowledge of the organizations before NYSDOL
selected them, she later told us she had a personal, long-term friendship with an
executive of Herald. The Herald’s former Program Director stated that the Regional
Representative was an old time friend. Further, the President of AABDC stated that he
and the Regional Representative were friends since college.

The Regional Representative played a major role in identifying the organizations,
providing contact information for the organizations as requested by NYSDOL, and
notifying the organizations of their awards. The Regional Representative emphasized
the direct involvement of the Department in a May 2002 speech before the Asian
American Leadership Conference. She stated:

     In [the] process of earmarking funds for Chinatown, we have looked for
     groups that have not previously received any money, but have traditionally
     been providing services in the community, and have been doing good work.
     In that process the Chinese Christian [Herald] Crusade is one of them. I’m
     happy to share a great experience – that in just two weeks of working with a
     mentor, they were able to write up a proposal and to effectively receive, I
     believe, over $200,000 in grants for an employment training service targeting
     health aides.

In an interview, the Regional Representative stated that her use of the word “we” in the
above quote was a reference to NYSDOL; however, the Regional Representative was
at the time, and continues to be, an employee of the U.S. Department of Labor. Also,
one departmental official, then-Counselor to the Secretary, stated that he expressed
concerns directly to the Regional Representative about the propriety of awarding sole
source contracts to friends with no history of providing employment services. Yet, the
organizations were not withdrawn from consideration, and the Regional Representative
provided NYSDOL contact information for the Herald and AABDC.

We believe the Regional Representative’s promotion of the Herald and AABDC to
receive NEG funds, and her public statements depicting the role Department officials
played in the subawards, created the appearance of favoritism and left the Department
vulnerable to accusations that the organizations received preferential treatment. We
also believe experience is crucial, especially during a national emergency. This is
especially true for organizations with no prior histories of serving dislocated workers and
administering Federal programs.




12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

Inconsistency with WIA

The Department’s participation at the subcontractor level also was inconsistent with a
guiding principle of WIA that gives states, local boards, and the private sector stronger
roles in program planning. The Administrator, ETA Office of National Response, stated
that ETA never got involved in the selection of subcontractors in any grant.

Inconsistency with P.L. 95-224

The Department’s actions were inconsistent with P.L. 95-224 that defines the role of the
Federal agency in a grant or cooperative agreement. In accordance with P.L. 95-224, a
grant agreement is the legal instrument used when no substantial involvement is
anticipated and a cooperative agreement is the legal instrument used when substantial
involvement is anticipated. National Emergency Grants are legal grant instruments,
establishing the Department’s intention not to have substantial involvement beyond the
recipient level. In this situation, the Department’s involvement not only exceeded its
stewardship responsibilities, but superseded the responsibilities of the recipient and
subrecipient.

                               Reflecting both its understanding of its role of fiscal
 The Council and Herald        conduit to funnel money to the Herald and the Council,
 Functioned Separately         and its inexperience with subcontractors, CMP acted
 Versus Working with           solely as fiscal agent and did not properly oversee the
 CMP as Subcontractors         work of the Herald and Council. A May 2003 report by
                               Public Private Ventures (PPV), which ETA commissioned
                               to evaluate the effectiveness of the NEG awarded to
CMP and provide recommendations on how NEGs could be structured to help
communities facing similar challenges in the future, found that the Council and the
Herald were functioning as separate organizations, serving their own independent
purposes versus working with CMP as subcontractors. Further, PPV stated that there
was little coordination between CMP and its subcontractors, and that more coordination
could have improved employment outcomes. In its report, PPV wrote:

       There was little coordination among the three grantees with respect to the
       services provided under the NEG. While CMP was the primary contractor,
       its principal relationship to its subcontractors was to collect data from
       them. CMP took an administrative fee from the grants to its
       subcontractors for this work. Each program was responsible for its own
       intake process and for designing its own program in accordance with the
       requirements of the NEG.

       The only meeting that occurred among the Chinatown grantees was
       immediately after the grant was awarded. The purpose was to discuss the
       requirements of the contract and to attempt to coordinate services. After
       this initial meeting, contact among the three organizations was limited to



U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

        telephone calls regarding data collection issues. The lack of
        communication posed a particular challenge for CCHC [Herald], which
        was new to the workforce system and would have benefited from
        guidance on how to implement an effective program. CMP and CPC
        [Council] were familiar with the WIA system and accustomed to providing
        workforce development services.

        . . . [M]ore coordinated services could have also had a positive impact on
        job placement outcomes because organizations would have all been trying
        to place participants in the same occupation.

Based on our interviews and review of e-mails, meeting minutes, and other
documentation, we concluded that the Department’s involvement was prompted
by good intentions: the need to respond to the enormous economic and
psychological impact the events of September 11, 2001, had on Chinatown and
New York City. However, we concluded that the Department put itself in a
situation of having contributed to actions taken by NYSDOL and CMP that
ultimately were inconsistent with Federal procurement rules and regulations for
which the Department is responsible for ensuring compliance. We also
concluded there was inadequate delineation of departmental responsibilities and
control over planning and carrying out the Chinatown response.

Recommendations

We recommend that appropriate action be taken to ensure that:

     1. all departmental employees fully comply with and promote the spirit and letter of
        Federal procurement and ethics laws and regulations, including but not limited to
        acting impartially, recuse themselves where there is a factual or apparent conflict
        of interest, and abstaining from the appearance of giving preferential treatment to
        any organization or individual;

     2. the roles and responsibilities of personnel in the Office of the Secretary, the
        Regional Representatives, ETA, and other key personnel are clearly delineated
        for grant awards, especially in emergency situations; and

     3. a record is maintained of decisions and discussions that lead to actions by
        departmental officials that affect how and to whom grant funds are distributed.




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

Agency Response

In response to recommendation 1, the Deputy Secretary stated:

          Although these events were likely shaped by the unprecedented
          circumstances in which they took place, it is common for
          regional staff to be closer to, and more connected with, potential
          grantees and other beneficiaries of departmental programs.
          Therefore, we will provide specialized training in Federal
          procurement and ethics rules to the Department’s regional
          appointees, to ensure that Federal procurement rules and other
          safeguards on the grant-making process are always carefully
          observed, even in emergency situations.

In response to recommendation 2, the Deputy Secretary stated:

          As you know, the Department’s Employment and Training
          Administration (ETA) follows detailed, written procedures for
          each of its grants (including the National Emergency Grant to
          New York State), and continuously upgrades these safeguards
          to strengthen the integrity of the grant-making process. After
          reviewing the challenges of responding to September 11, ETA
          implemented new procedures and controls that address the
          OIG’s recommendation. In April 2003, ETA issued ET Order 1-
          03, which clarifies the roles and responsibilities within ETA for
          grant administration, including new Grant Officer responsibilities
          for Regional Administrators. In February 2005, ETA also issued
          internal guidance to define roles and responsibilities for
          Emergency Grant (NEG) awards, covering all phases of the
          administrative process.

In response to recommendation 3, the Deputy Secretary stated:

          Effective record-keeping enhances the transparency of the
          grant-making process and reduces the potential for grant
          decisions to be influenced by factors and individuals outside the
          designated procedures and criteria. ETA’s February 2005
          internal guidance substantially enhances record-keeping
          procedures related to grant administration, in furtherance of
          these objectives. Nearly every aspect of ETA’s grant-making
          process is recorded, much of it through e-communications. . . .
          These enhanced record-keeping measures ensure that the roles
          and actions of Department officials involved in the grant-making
          process are fully transparent. These measures also reinforce
          the principle that no official should take actions intended to



U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

          influence the award or distribution of grant funds that are
          external to this systematized, transparent process.

OIG Conclusion

The Department’s written response included a plan to provide specialized training to
regional appointees. This is an excellent idea and will address a significant concern
raised in our report. The actions that led to the contract award problems with the NEG,
however, were not confined solely to the regional appointee. Therefore, the Deputy
Secretary subsequently agreed to provide such training to all Department employees
involved either directly or indirectly in procurement. Based on the written response and
subsequent agreement, recommendation 1 is resolved. The recommendation will be
closed when all training is completed.

Based on information and documentation provided of actions already taken,
recommendations 2 and 3 are resolved and closed.




Elliot P. Lewis
February 15, 2005




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules




Appendices




U.S. Department of Labor—Office of Inspector General                                      17
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

                                                                              APPENDIX A
BACKGROUND


CMP was founded in 1972, as a nonprofit community-based organization in response to
vocational training needs of the growing Asian immigrant and refugee community. Its
mission is to provide vocational training, employment services, educational programs,
and economic development programs to disadvantaged Asian Americans and the
refugee community. CMP’s goal is to help these groups acquire the necessary skills
and resources needed to become economically self-sufficient and contributing members
of mainstream society. CMP trains over 1,600 individuals a year through vocational
programs.

On September 13, 2001, ETA issued Master Agreement Number ER-11796-01-60 for
$25 million to NYSDOL for funds under the NEG program under WIA, Section 173.
Initially, the grant was to assist workers who were dislocated by the September 11,
attack by providing temporary jobs to assist in the cleanup, repair and reconstruction of
public and private nonprofit property. On October 3, 2001, the grant was modified to
provide core, intensive, and training services for workers who lost their jobs as a result
of the World Trade Center (WTC) attack. The revision was necessary because the
cleanup area was declared a crime scene, and due to the highly specialized nature of
the investigations, temporary jobs near the WTC were prohibited at that time.

To expedite the selection of contractors, NYSDOL solicited the interest of New York
City’s (NYC) network of dislocated worker contractors to provide retraining and
placement services. The Local Workforce Investment Areas (LWIA) had selected these
contractors through NYC’s competitive bid process. Of the 20 contractors in NYC’s
dislocated worker program, 14 contractors, including CMP, negotiated contracts with
NYSDOL to provide services under the NEG. In addition, NYSDOL awarded contracts
to four LWIAs outside of NYC.




U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

                                                                              APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our objective was to determine what involvement the Department had in the selection of
CMP’s subcontractors.

Scope

We conducted our performance audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and included such
tests as we considered necessary to satisfy the objectives of the audit. Our audit
objectives did not require, and we did not perform, testing or assessment of internal
controls or compliance with laws and regulations regarding the Department’s overall
grant process. Our review of controls and compliance were limited to the Department’s
involvement with the award NEG funds to CMP and its contractors. Our audit period
was September 13, 2001, to February 14, 2002. Fieldwork was conducted in the
Department from April 28, 2004, through February 15, 2005.

Methodology

We interviewed Department of Labor officials in the Office of the Secretary, the Office of
Congressional and Intergovernmental Affairs, ETA, and the Office of the Solicitor, and
reviewed relevant grants, contracts, meeting minutes, emails, and other documentation.
In preparing this report, we also relied on interviews conducted and evidence obtained
in conjunction with our audit of hotline allegations and other issues, the results of which
will be separately reported to the ETA Assistant Secretary. For example, we
interviewed officials from NYSDOL, CMP, the Herald, and the Council regarding the
award of NEG funds to CMP and its subcontractors.

Criteria

Procurement

29 CFR 95.43 (Non- Profit Organizations)

        Competition. All procurement transactions shall be conducted in a
        manner to provide, to the maximum extent practical, open and free
        competition. The recipient shall be alert to organizational conflicts of
        interest as well as noncompetitive practices among contractors that may
        restrict or eliminate competition or otherwise restrain trade. In order to
        ensure objective contractor performance and eliminate unfair competitive
        advantage, contractors that develop or draft specifications, requirements,


U.S. Department of Labor—Office of Inspector General                                      21
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules

       statements of work, invitations for bids and/or requests for proposals shall
       be excluded from competing for such procurements. Awards shall be
       made to the bidder or offeror whose bid or offer is responsive to the
       solicitation and is most advantageous to the recipient, price, quality and
       other factors considered. Solicitations shall clearly set forth all
       requirements that the bidder or offeror shall fulfill in order for the bid or
       offer to be evaluated by the recipient. Any and all bids or offers may be
       rejected when it is in the recipient's interest to do so.

29 CFR 95.44 (d) and (e) (Non-Profit Organizations)

       Contracts shall be made only with responsible contractors who possess
       the potential ability to perform successfully under the terms and conditions
       of the proposed procurement. Consideration shall be given to such
       matters as contractor integrity, record of past performance, financial and
       technical resources . . .

       Recipients shall, on request, make available for the Federal awarding
       agency, pre-award review and procurement documents, such as request
       for proposals or invitations for bids, independent cost estimates, etc.,
       when any of the following conditions apply.

                  (1) A recipient's procurement procedures or operation fails to
                      comply with the procurement standards in the Federal
                      awarding agency's implementation of this Circular.

                  (2) The procurement is expected to exceed the small purchase
                      threshold fixed at 41 U.S.C. 403 (11) (currently $25,000) and
                      is to be awarded without competition or only one bid or offer
                      is received in response to a solicitation.

29 CFR 97.36

       (a) States. When procuring property and services under a grant, a State will
       follow the same policies and procedures it uses for procurements from its non-
       Federal funds. The State will ensure that every purchase order or other contract
       includes any causes required by Federal statues and executive orders and their
       implementing regulations.

NY State Procurement Guidelines, Section Four, G, Emergency Conditions

       An Emergency is considered an urgent and unexpected requirement
       where health and public safety or conservation of public resources is at
       risk. An agency’s failure to properly plan in advance which then results in
       a situation in which normal practices cannot be followed does not
       constitute an emergency.

22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

       Where an emergency exists, an agency may let procurement contracts
       without complying with formal competitive bidding requirements. Under
       such conditions, a waiver of the competitive bidding requirements must be
       approved by the agency head or a designee.

       Under such conditions, the agency shall document in the Procurement
       Record each transaction entered as a result of the emergency situation,
       setting forth the nature of the emergency situation; the potential effect on
       the health, public safety, or the conservation of public resources; and a
       detailed description of the commodities, services and technology to be
       provided. The agency shall make all reasonable attempts to solicit at least
       three oral competitive bids and written confirmation of each solicitation
       shall be furnished within a reasonable time and maintained as an official
       record. Contracts entered into as a result of the emergency situation shall
       be for only the commodities, technology and/or services necessary to
       remedy or ameliorate the situation.

Impartiality

5 CFR 2635.101 (Basic Obligation of Public Service)

       . . . (b) General principles. The following general principles apply to every
       employee and may form the basis for the standards contained in this part.
       Where a situation is not covered by the standards set forth in this part,
       employees shall apply the principles set forth in this section in determining
       whether their conduct is proper. . . . (8) Employees shall act impartially
       and not give preferential treatment to any private organization or
       individual.

Workforce Investment Act; Final Rules

20 CFR 652 et al. Section I.A WIA Principles

       This new law embodies seven key principles. They are . . .
          - Strong role for local workforce investment boards and the private
       sector, with local, business-led boards acting as ``boards of directors,''
       focusing on strategic planning, policy development and oversight of the
       local workforce investment system. Business and labor have an
       immediate and direct stake in the quality of the workforce investment
       system. Their active involvement is critical to the provision of essential
       data on what skills are in demand, what jobs are available, what career
       fields are expanding, and the identification and development of programs
       best meet local employer needs. Highly successful private industry
       councils under JTPA exhibit these characteristics now. Under WIA, this
       will become the norm.



U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules



          - State and local flexibility. States and localities have increased
       flexibility, with significant authority reserved for the Governor and chief
       elected officials, to build on existing reforms in order to implement
       innovative and comprehensive workforce investment systems tailored to
       meet the particular needs of local and regional labor markets. . . .

Use of Contracts, Grants, and Cooperative Agreements

DLMS 2, Chapter 800, Section 854 (b)

       The Department shall use a type of grant agreement as the legal instrument
       reflecting a relationship between DOL and a State, local government or other
       recipient whenever the principal purpose of the relationship is the transfer of
       money, property, services or anything of value to the recipient to accomplish a
       public purpose of support or stimulation authorized by Federal statute and no
       substantial involvement is anticipated between DOL and the State, local
       government or other recipient during performance of the contemplated activity.
       [Emphasis added.]


DLMS 2, Chapter 800, Section 856


       Anticipated Substantial Involvement During Performance. The basic statutory
       criteria for distinguishing between grants and cooperative agreements is that for
       the latter, "substantial involvement is anticipated between the executive agency
       and the recipient during performance of the contemplated activity. . . anticipated
       departmental involvement during performance would exist and, depending on the
       circumstances, could be substantial, where the relationship includes, for
       example. . . (3) Agency review and approval of substantive provisions of
       proposed sub-grants or contracts. These would be provisions that go beyond
       existing policies on Federal review of grantee procurement standards and sole
       source procurement.




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules

                                                                              APPENDIX C
ACRONYMS AND ABBREVIATIONS


                     AABDC          Asian American Business Development Center

                     CFR            Code of Federal Regulations

                     CMP            Chinatown Manpower Project, Inc.

                     Council        Chinese-American Planning Council

                     Department U. S. Department of Labor

                     ESL            English as a Second Language

                     ETA            Employment and Training Administration

                     Herald         Chinese Christian Herald Crusade

                     LWIA           Local Workforce Investment Area

                     NEG            National Emergency Grant

                     NYSDOL         New York State Department of Labor

                     NYUL           New York Urban League

                     OCIA           Office of Congressional and Intergovernmental Affairs

                     OIG            Office of Inspector General

                     OMB            Office of Management and Budget

                     OSEC           Office of the Secretary

                     WIA            Workforce Investment Act of 1998




U.S. Department of Labor—Office of Inspector General                                      25
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                Departmental Involvement in Chinatown Manpower Project, Inc.,
                                          Contributed to Circumvention of Procurement Rules
                                                                              APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                      27
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




28                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
                                 Departmental Involvement in Chinatown Manpower Project, Inc.
                                           Contributed to Circumvention of Procurement Rules




U.S. Department of Labor—Office of Inspector General                                      29
Report Number: 02-05-202-01-001
Departmental Involvement in Chinatown Manpower Project, Inc.,
Contributed to Circumvention of Procurement Rules




30                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-05-202-01-001
